 DEPARTMENT OF HOMELAND SECURITY

  Office of Inspector General



      An Audit of FEMA’s Acquisition
                Workforce




        Office of Audits
OIG-04-12            March 2004
                                              Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG periodically as part of its oversight responsibility with respect to DHS to
identify and prevent fraud, waste, abuse, and mismanagement.

This report is the result of an assessment of the strengths and weaknesses of the program,
operation, or function under review. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed on the basis of the best knowledge available
to the OIG, and have been discussed in draft with those responsible for implementation. It is
my hope that this report will result in more effective, efficient, and/or economical operations. I
express my appreciation to all of those who contributed to the preparation of this report.




Clark Kent Ervin
Inspector General
                                                                                                                         Contents


  Introduction..................................................................................................................................... 3

  Results in Brief ............................................................................................................................... 3

  Background .................................................................................................................................... 4

  Acquisition Workforce Files .......................................................................................................... 5

  Regulations .................................................................................................................................... 6

  FEMA Guidance ............................................................................................................................ 6

  Non-Compliance with Guidance.................................................................................................... 7

  Policy Staffing................................................................................................................................ 7

  Conclusions and Recommendations .............................................................................................. 8


Appendices

  Appendix 1:                 Purpose, Scope, and Methodology.................................................................. 10
  Appendix 2:                 Recommendations............................................................................................11
  Appendix 3:                 Management Comments ................................................................................. 12
  Appendix 4:                 OIG Analysis of Management Comments .......................................................14
  Appendix 5:                 Major Contributors To This Report ................................................................ 15
  Appendix 6:                 Report Distribution ......................................................................................... 16


Abbreviations

  CFR                         Code of Federal Regulations
  FAR                         Federal Acquisition Regulation
  FEMA                        Federal Emergency Management Agency
  IDP                         Individual Development Plans
  OFPP                        Office of Federal Procurement Policy



                                     An Audit of FEMA’s Acquisition Workforce                                                                    Page 1
Contents

   OCPO    Office of the Chief Procurement Officer
   OIG     Office of Inspector General




Page 2                        An Audit of FEMA’s Acquisition Workforce
OIG
Department of Homeland Security
Office of Inspector General


    Introduction
                       The Federal Emergency Management Agency’s (FEMA) acquisition workforce
                       includes a senior procurement executive, a full-time professional staff of 51,
                       and 23 temporary employees. They are located at FEMA headquarters, National
                       Emergency Training Center, Mount Weather Emergency Assistance Center, and
                       ten FEMA regional offices. FEMA acquires a wide range of goods and services
                       - from office supplies and forklifts to laboratory and security services.

                       We conducted this audit to assess how well FEMA manages its acquisition
                       workforce. The audit was conducted from November 2002 to June 2003 at
                       FEMA headquarters, National Emergency Training Center, and Mount Weather
                       Emergency Assistance Center.



    Results in Brief
                       Numerous deficiencies in FEMA’s record keeping prevented the Office of
                       Inspector General (OIG) from performing a thorough analysis of FEMA’s
                       acquisition workforce capability and workload management. It was impossible
                       to determine whether the acquisition personnel met training, education, and
                       experience requirements. While it was not possible to evaluate workload
                       management, there were indications that FEMA needs to manage its workload
                       more effectively. The absence of capability and performance information in
                       employee files, and the absence of operational reviews indicated that managers do
                       not have the information needed to manage the workload.

                       The OIG recommends that the Chief Procurement Officer, Office of the Under
                       Secretary for Management:

                          1. Review and update FEMA professionalism and warrant files to ensure that
                             each employee meets the requirements for his or her position.




                           An Audit of FEMA’s Acquisition Workforce                               Page 3
                2. Review and update 48 CFR 4401, FEMA Manual 4100.1, and FEMA
                   Policy Memorandum 2001-02.

                3. Ensure that FEMA’s acquisition policy and policy monitoring function is
                   outside operational procurement branches.

                4. Designate a competition advocate in writing.



Background
             FEMA became part of the Department of Homeland Security in March 2003.
             FEMA’s mission is to reduce the loss of life and property, and protect our
             institutions, from all hazards. In support of this mission, FEMA processed over
             2,600 procurement actions for a total of $429 million during FY 2002. Actions
             ranged from awarding new contracts to making small purchases using simplified
             acquisition procedures. FEMA’s acquisition workforce is made up of 51 full-time
             professional staffers working at headquarters and other field office facilities. In
             addition, there are 23 temporary acquisition employees who work at disaster field
             offices to help respond to and recover from disasters. Of the 74 employees, 43
             have warrants to conduct contracting activities.

             Federal laws and regulations govern what FEMA can buy, the methods used to
             purchase items, and who is allowed to make purchases. The Federal Acquisition
             Regulation (FAR) is the primary document governing acquisitions by executive
             agencies such as FEMA. The Code of Federal Regulations (CFR) 48 4401 is
             FEMA’s regulation implementing the FAR.

             In addition to the regulations, FEMA implements internal agency guidance
             that directs, guides, informs, and instructs employees in performing their jobs.
             FEMA Manual 4100.1, Acquisition Management, summarizes federal and FEMA
             acquisition guidance. Policy Memorandum 2001-02, Revised Procurement Career
             Management Program, outlines minimum acquisition workforce training and
             experience requirements and provides guidance for granting, maintaining, and
             revoking acquisition skill level certifications and contracting officer authority.




Page 4                           An Audit of FEMA’s Acquisition Workforce
Acquisition Workforce Files
               FEMA has not maintained accurate or up-to-date acquisition workforce files. A
               majority of the information on warrants, training, education, experience, waivers,
               and certifications was not maintained in the files, as required by FEMA Policy
               Memorandum 2001-02, FAR 1.603, and Office of Federal Procurement Policy
               (OFPP) guidance. FEMA maintains a consolidated professionalism and warrant
               file for each acquisition employee in the contract specialist job series. As a result
               of the inadequate files, the OIG was unable to assess the qualifications of the
               workforce. Because FEMA’s acquisition workforce files were not maintained
               pursuant to applicable federal guidelines, FEMA may be at risk that its acquisition
               workforce is not qualified. In addition, inadequate warrant files increase the
               risk that contracting officer authority might be granted to those without the
               qualifications or need for such authority.

               The OIG reviewed professionalism files for the 45 employees in the contract
               specialist job series and 43 warrant files. All but one of the 45 professionalism
               files did not have sufficient documentation as to whether employees completed
               the mandatory core training requirements for their respective grade levels.
               Thirty-seven of 43 warrant files had inadequate supporting documentation for
               experience; 35 had insufficient supporting documentation regarding educational
               requirements; 21 had inadequate supporting documentation regarding training;
               and 17 had insufficient supporting documentation regarding continuing education.
               Two waivers of education requirements had been granted for promotions to grades
               13 and 14 without the required documentation in the employees’ files. In addition,
               none of the personnel files for FEMA’s 23 temporary acquisition employees
               who work at disaster field offices contained copies of performance appraisals, as
               required by FEMA policy. A FEMA official told the OIG that FEMA did not have
               a file retention plan, which is also required by FEMA policy.

               During the course of the OIG’s audit work, FEMA found some of the missing
               file documentation and increased its efforts to organize and manage acquisition
               workforce files. FEMA officials said that the files had not been adequately
               maintained because they did not have sufficient resources devoted to maintaining
               them. They said there were many other competing priorities and not enough time
               or staff to complete them all. The OIG, however, did not independently verify that
               this was the case.




                    An Audit of FEMA’s Acquisition Workforce                                 Page 5
Regulations
              The FAR is supplemented by 48 CFR 4401, which codifies uniform policies and
              procedures for FEMA acquisitions. FEMA has not updated 48 CFR 4401 for at
              least two years, although federal regulations require annual updates. As a result,
              the regulation is outdated and contains inaccurate information. It lists offices and
              functions that no longer exist, policies and procedures that are no longer relevant,
              and delegations that are no longer effective. For example, according to the most
              current version of 48 CFR 4401, FEMA’s competition advocate is the chief,
              Policy and Planning Division, Office of Acquisition Management. However, that
              division no longer exists.

              In another example, 48 CFR 4401 allows unlimited contracting authority to be
              granted to people who have a minimum of two years specialized experience.
              However, current FEMA policy is that such authority be granted only to people
              who have at least five years of progressively complex government contracts
              related experience. The regulation needs to be updated to match the current policy.



FEMA Guidance
              FEMA instructions and manuals direct, guide, inform and instruct employees in
              the performance of their jobs. Consequently, they should be updated periodically
              to enable employees to work effectively. FEMA has not updated its acquisition
              guidance to reflect current federal regulations. FEMA Manual 4100.1, Acquisition
              Management, was last updated in 1993. It requires compliance with the Brooks
              Automatic Data Processing Act, a law that was repealed and replaced by the
              Clinger Cohen Act of 1996. Additionally, it states that multiple small business
              sources are to be used for procurements of $25,000 or less. Current federal
              regulations require that acquisitions between $2,500 and $100,000 be reserved for
              small business sources.

              Policy Memorandum 2001-02, Revised Procurement Career Management
              Program, dated March 5, 2001, outlines minimum acquisition workforce training
              and experience requirements. It provides guidance for granting, maintaining, and
              revoking acquisition skill level certifications and contracting officer authority, too.
              FEMA’s acquisition workforce is required to plan its education, training, and work
              assignments according to this policy memorandum. However, it is inconsistent
              with OFPP Policy Letter 97-01. FEMA’s policy memorandum is deficient in that



Page 6                             An Audit of FEMA’s Acquisition Workforce
                  minimum training and experience requirements are not identified for acquisition
                  personnel in the purchasing occupational series, those in non-contracting series
                  with contracting authority at or below the simplified acquisition threshold, or
                  those assigned as contracting officer representatives. Also, it does not address
                  funding of acquisition workforce education and training.

Non-Compliance with Guidance
                  Although it was not possible to perform a comprehensive assessment of FEMA’s
                  compliance with acquisition regulations and policies, the OIG noted several
                  instances of non-compliance. The OIG determined from its review of acquisition
                  employee files and interviews with acquisition staff that policies on education
                  waiver requirements were not followed for two employees. In addition, records
                  did not document that contracting officer authority was properly granted or
                  revoked in 17 instances. For example, FEMA granted $25,000 of non-disaster
                  contracting officer authority to a regional support coordination assistant without
                  adequate documentation justifying the action. The employee was not in the
                  contracting occupational series, and the employee’s position description did not
                  identify non-disaster procurement responsibilities.

                  In addition, FEMA has not prepared individual development plans (IDPs) for
                  its acquisition employees, as required under FEMA Policy Memorandum 2001-
                  02. The IDP identifies the education, training, and developmental needs of an
                  employee. It documents the necessary planning, scheduling, and budgeting
                  of training and development for employees to be effective and advance in the
                  acquisition field. Only one of the 45 contract specialists had an IDP. FEMA
                  officials told the OIG they have not required IDPs for its acquisition employees
                  for several years. The absence of an IDP hampers FEMA’s ability to ensure that
                  its acquisition workforce is qualified and that adequate funds are set aside for
                  education and training.



Policy Staffing
                  Interpreting, implementating, and monitoring acquisition policy are important
                  functions that should be given high priority and a reasonable degree of
                  independence. FEMA assigned acquisition policy responsibilities to procurement
                  analysts in one of the functional procurement branches, thus limiting the
                  independence and effectiveness of the policy function. In addition, the



                       An Audit of FEMA’s Acquisition Workforce                                Page 7
             competition advocate position, an important function required to ensure that
             competition policies were enforced, was not clearly established. Although
             FEMA’s web site named a division director as the competition advocate,
             acquisition officials said that the competition advocate’s functions were verbally
             assigned to a senior procurement analyst within the branch. In any case, the
             competition advocate, as a part of the operational branch, did not have the
             independence necessary to be effective in the position.

             FEMA has not reviewed its contracting operations for effective competition since
             FY 1992. Federal regulations require these reviews to be conducted annually to
             ensure that agencies are promoting full and open competition to the maximum
             extent practicable. After interviewing staff and reviewing FY 2001 small business
             goals and procurement data, the OIG determined that FEMA also failed to meet
             its FY 2001 small business goals, and that a required written justification and
             corrective action plan was not submitted to the Small Business Administration.

             Prior to 1996, FEMA conducted biennial procurement system reviews to evaluate
             the effectiveness of FEMA procurement activities and compliance with governing
             laws and regulations. However, FEMA has not conducted the reviews since then.
             Acquisition officials told the OIG that they did not have the resources to perform
             the biennial reviews. These independent management reviews represented
             an important quality control mechanism for ensuring that procurements were
             conducted effectively and according to federal laws and regulations.



Conclusions and Recommendations
             FEMA has inadequate controls to ensure that its acquisition workforce meets
             training, education, and experience requirements and can function according
             to federal regulations. Specifically, FEMA’s acquisition personnel records
             are incomplete, and management has not performed all required personnel
             management functions. FEMA is aware of these deficiencies and has requested
             additional acquisition resources to address the problem.

             The OIG recommends that the Chief Procurement Officer, Office of the Under
             Secretary for Management:

                1. Review and update FEMA professionalism and warrant files to ensure that
                   each employee meets the requirements for his or her position.



Page 8                           An Audit of FEMA’s Acquisition Workforce
2. Review and update 48 CFR 4401, FEMA Manual 4100.1, and FEMA
   Policy Memorandum 2001-02.

3. Ensure that FEMA’s acquisition policy and policy monitoring function is
   outside operational procurement branches.

4. Designate a competition advocate in writing.




 An Audit of FEMA’s Acquisition Workforce                             Page 9
Appendix 1
Purpose, Scope, and Methodology



Purpose, Scope, and Methodology
                    The objective of this audit was to assess FEMA’s management of its acquisition
                    workforce. The review process included interviewing FEMA officials, evaluating
                    and comparing FEMA’s acquisition guidance with federal acquisition laws and
                    regulations; and, analyzing warrant and certification files, position descriptions,
                    mission and function statements, organizational and staffing charts, personnel
                    records, budget justification documentation, workload history, and overtime
                    records.

                    We conducted our audit between November 2002 and June 2003 according to
                    generally accepted government auditing standards.

                    Throughout the audit, OIG worked closely with FEMA acquisition and human
                    resource officials. The cooperation and courtesies extended to the audit team
                    are appreciated. The principal OIG points of contact for the audit are Assistant
                    Inspector General for Audits, J. Richard Berman at (202) 254-4100, and Dennis
                    White, Director, Emergency Preparedness and Response at (202) 254-4157. Major
                    OIG contributors to the project are identified in Appendix 5.




Page 10                                 An Audit of FEMA’s Acquisition Workforce
                                                            Appendix 2
                                                            Recommendations



The OIG recommends that the Chief Procurement Officer, Office of the Under
Secretary for Management:

   1. Review and update FEMA professionalism and warrant files to ensure that
      each employee meets the requirements for his or her position.

   2. Review and update 48 CFR 4401, FEMA Manual 4100.1, and FEMA
      Policy Memorandum 2001-02.

   3. Ensure that FEMA’s acquisition policy and policy monitoring function is
      outside operational procurement branches.

   4. Designate a competition advocate in writing.




    An Audit of FEMA’s Acquisition Workforce                            Page 11
Appendix 3
Management Comments




Page 12               An Audit of FEMA’s Acquisition Workforce
                                           Appendix 3
                                           Management Comments




An Audit of FEMA’s Acquisition Workforce                 Page 13
Appendix 4
OIG Analysis of Management Comments



The OIG evaluated the Office of the Chief Procurement Officer’s (OCPO) written comments and has
made changes to the report where appropriate. A summary of the written comments and our analysis
regarding the recommendations made in the report is as follows:

Recommendations

   1. Review and update FEMA professionalism and warrant files to ensure that each employee
      meets the requirements for his or her position.

   OCPO agrees with this recommendation. FEMA is in the process of updating records for all GS-
   1102 personnel. FEMA is also taking action to ensure that contracting warrants are issued and
   maintained in accordance with DHS management directives. OCPO and FEMA plan to complete this
   corrective action by December 31, 2004.

   The OIG concurs with OCPO’s response.

   2. Review and update 48 CFR 4401, FEMA Manual 4100.1, and FEMA Policy Memorandum
      2001-02.

   OCPO concurs with the intent of this recommendation. FEMA has assembled a team to review
   and update the policies and procedures to ensure compliance with the DHS Security Acquisition
   Regulation and DHS Acquisition Manual. FEMA has committed to complete this corrective action
   by December 31, 2004. OCPO will monitor FEMA’s progress.

   The OIG concurs with OCPO’s response.

   3. Ensure that FEMA’s acquisition policy and policy monitoring function is outside
      operational procurement branches.

   OCPO agrees with this recommendation. FEMA will establish a separate policy branch by December
   31, 2004. OCPO will monitor the progress of this corrective action.

   The OIG concurs with OCPO’s response.

   4. Designate a competition advocate in writing.

   OCPO agrees with this recommendation and a Competition Advocate will be designated in writing.
   OCPO and FEMA plan to complete this corrective action by December 31, 2004.

   The OIG concurs with OCPO’s response.



Page 14                                 An Audit of FEMA’s Acquisition Workforce
                                               Appendix 5
                                               Major Contributors To This Report



Gina Smith, Audit Manager, Department of Homeland Security, Office of Audits,
Emergency Preparedness and Response

Leigh Johnson-Steele, Auditor, Department of Homeland Security, Office of
Audits, Border and Transportation Security

John Woo, Auditor, Department of Homeland Security, Office of Audits,
Emergency Preparedness and Response




    An Audit of FEMA’s Acquisition Workforce                               Page 15
Appendix 6
Report Distribution



                      Department of Homeland Security

                      Office of the Under Secretary for Management
                          Emergency Preparedness and Response Directorate
                              Federal Emergency Management Agency


                      Office of Management and Budget

                      Homeland Bureau Chief
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committee as Appropriate




Page 16                                 An Audit of FEMA’s Acquisition Workforce
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland, Washington, DC 20528,
Attn: Office of Inspector General, Investigations Division – Hotline. The OIG seeks to
protect the identity of each writer and caller.
